HHS/OIG-Audit--"Review of the National Institutes of Health National Research Service Awards Program and Payback Requirements, (A-15-99-80002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the National Institutes of Health National Research Service
Awards Program and Payback Requirements," (A-15-99-80002)
January 14, 2000
Complete Text of Report is available in PDF format
(1.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the National Institutes of Health (NIH) has
not maintained a complete and accurate payback file (data base) to adequately
monitor recipients of National Research Service Awards (NRSA). Several factors
contributed to the problems with this data base. Most significantly, NIH components
did not always follow established policies and procedures for maintaining the
data base and NIH's automated system did not always perform the functions needed
to update the data base when new information was entered. As a result, NIH could
not readily verify the current payback status for over 4,100 NRSA recipients,
or the financial debts they potentially owe the Government. Recommendations
call for action NIH needs to take to ensure proper maintenance of the data base.
The NIH concurred with our recommendations and formed a "Payback Workgroup"
to begin work to identify the extent of the problems and implement the necessary
corrective actions.